      AUDIT REPORT 

STEVEN F. UDVAR-HAZY CENTER 

    BUSINESS ACTIVITIES 

              A-04-06 


           August 25,2004 





    Srnithsonian Institution
w    Office of Inspector General
                                       SUMMARY

The Office of the Inspector General audited business activities at the National Air and Space
Museum Steven F. Udvar-Hazy Center (theCenter). Our purpose was to determinewhether
adequate controls were in place to ensurethat revenues and expenseswere at levels expected and
were promptly reported and recorded in official accountingrecords. Also, we determined if
funds borrowed and advanced to complete the Center were being paid as expected. We focused
on concessions,the IMAX theater, museum store, simulators,and visitor parking.

Funds borrowed and advanced to construct the Center were being paid consistentlywith plans.
The Smithsonian Institution made payments to bondholders as scheduled and had started
repaying trust funds advanced.
Improvements were needed in three areas of the Center's business activities: (1) parking revenue
reporting and reconciliations, (2) parking procedures, and (3) concession reporting. We
therefore made recommendationsto improve controlsin those areas as summarized below:

       Provide instructionto contractors to provide more accurate revenue reports and to
       strengthen procedures over non-revenue transactions.

       Develop written contracting procedures for monitoring contractor performance.

Management concurred with our recommendations and provided implementation plans. We
believe that these implementationplans are responsive to our recommendations.
                                              TABLE OF CONTENTS

                                                                                                                                           Page 

I. Introduction .....................................................................................................................................

                                                                                                                                                 1

       A. Purpose ....................................................................................................................................

                                                                                                                                                1

       B. Scope and Methodology..........................................................................................................

                                                                                                                                     1

       C. Background .............................................................................................................................

                                                                                                                                             3

2. Results of Audit ................................................................................................................................

                                                                                                                                               4

       A. Parking Contractor Revenue Reporting and Reconciliation Procedures.............................4 


       B. NASM Parking Procedures.. ...................................................................................................

                                                                                                                                  7

       C. SBV Contracting Procedures ..................................................................................................

                                                                                                                                  9

Appendix A. Comments by the Director, National Air and Space Museum .................................11 


Appendix B. Comments by the Chief Executive Officer of Smithsonian Business 

Ventures ..............................................................................................................................................

                                                                                                                                                 12

                                      ABBREVIATIONS AND ACRONYMS

               Center                      Steven F. Udvar-Hazy Center
               NASM                        National Air and Space Museum
               OMB                         Office of Management and Budget
               SBV                         Smithsonian Business Ventures
               SD                          Smithsonian Directive
                                         INTRODUCTION

A. Purpose

The purpose of the audit was to determinewhether the Center's internal controls over its
business activitieswere adequate in four areas. Specifically,we examined whether: (1) revenue
was promptly and accurately collected and transferred to the Institution; (2) revenues and
expenses from the business activitieswere being recorded into the SmithsonianPeopleSoft and
Smithsonian Business Ventures (SBV) Lawson accountingsystems promptly and accurately;(3)
revenues and expenseswere promptly and accurately reported to the Treasurer's office by the
National Air and Space Museum (NASM)and SBV and by contractorsto NASM and SBV
management; (4)bond and "advance" funds',which were used to fund construction of the
Center,were being repaid as expected.

B. Scope andMethodology

The audit was conducted from March 8,2004,to June29,2004, in accordancewith generally
accepted government auditingstandards. We evaluated the adequacyof the controls and
procedures over the accountingfor activityat the Center and tested transactions for compliance
with applicable laws, policies, and procedures.

The audit coveredbusiness activityfrom December 15,2003,to March 31,2004. The scope of
the audit did not cover funds received from donor pledges or special events fees.

We reviewed the following:

               Policies and procedures relating to the accountingfor business activities at
               the Center;
               Prior audits and investigations of Smithsonian activities and of similar
               activities from other federal and local government agencies;
               Daily, weekly, and monthly transactions at the Center for the period
               December 15,2003,through March 31,2004;
               Contractsfor all business activities operated by a contractor;
               Revenue collection processes for all of the business activities, from the receipt
               of the cash to the deposit in the bank and recording in the PeopleSoft and
               Lawson financial accountingsystems;
               Bond documents; and
               Revenue-sharing documents.

We interviewed staff from offices involved with the Center such as the Office of the
Comptroller, the Office of the Treasurer, NASM, SBV, and the Office of Contracting. We
also interviewed the food and beverage and simulator contractors' management and staff.
Through interviews and transaction reviews, we reviewed Center practices and controls
over accounting, contracting, and operations.



' "Advance" funds are advances of funds against almost certain revenues expected in the near future.
Typically, such revenues are expected from confirmed grants or signed gift pledges.
For the three and one-half month period from December 15,2003, to March 31,2004, the
Center produced net income of approximately $3.2 million from the operation of the
parking lot, concessions, theater, simulators, and museum shops, according to SBV's
Lawson system and the Institution's PeopleSoft system (see Chart 1).



                Net Income for the Period of December 2003 to March 2004 

                     According to the Lawson and PeopleSoft Systems2 


  Activity              Revenue                      Expenses                          Net Income


   Parking                    1,298,395                             3,387                              1,295,008
   Theater                      795,119                          214,224                                 580,895
  Food and                       73,000                           33,583                                  39,417
  Beverage
 Concession
 Simulators                      65,534                               743                                 64,791
    Store                     1,453,830                          192,820                               1,261,010
   Totals                    3,685,878                          444,757                                3,241,121

During the audit we sought to answer questions such as:

 1. 	 Was the revenue expected to be received actually received?
 2. 	 Were revenues and expenses accurately and promptly recorded in the accounting
      records?
 3. 	 Were expenses supported by documents such as purchase orders and invoices?
 4. 	 Was there good communication of accounting and management information 

      between the contractors and the Institution? 

 5. 	 Were the bond and advance funds being repaid as expected?




 Parking revenues and expenses are recorded in PeopleSoft and other business activities revenues and
expenses are recorded in SBV's Lawson system.
C. Background

The Steven F. Udvar-Hazy Center

The Center is an annex to the NASM. The Center is located at Washington Dulles
International Airport in Northern Virginia, approximately 30 miles from the National
Mall in Washington, D.C. The Center opened on December 15,2003, and provides
exhibit areas for aircraft and spacecraft, educational facilities for school groups and
educators, areas for business activities (including a large format IMAX theater,
restaurant, museum shop, simulators, and visitor parking), and an observation deck from
which visitors can watch aircraft arriving and departing from Washington Dulles
International Airport.

The Business Activities

NASM oversees visitor parking, and SBV oversees the IMAX theater, museum store, food
and beverage concession, and simulators. NASM uses a contractor to operate the visitor
parking. SBV operates the IMAX theater and museum store and uses contractors to
operate the concession and simulators.

The parking contractor collects parking revenues in return for a percentage of gross
parking receipts collected. The simulator contractor provides three motion-ride systems
for a percentage of gross receipts. The concessions contractor provides food and beverage
services for a percentage of gross receipts. The museum store sells aviation-themed items
at a store and a kiosk in the Center. The IMAX operation provides theater entertainment.

Financial Reporting

OC staff records the revenues and expenses from the parking lot into PeopleSoft, the
Institution's financial system. SBV staff records revenues and expenses from the Center's
other business activities into SBV's accounting system, Lawson. At year-end, the
accounting information from the Lawson system is consolidated into the PeopleSoft
system.
Center Construction Financing

NASM had to finance a cash-flow gap between the amount of cash needed to pay for the
Center's construction costs and the cash flow provided from contributions and business
activities. The Institution bridged NASM's cash-flow need by funding construction of the
Center with a trust fund advance. The Institution decided to fund the advance with debt.
                                   RESULTS OF AUDIT

A. Parkincr ContractorRevenue Revortine and Reconciliation Procedures

NASM staff was unable to obtain accurate parking revenue data from the parking 

contractor at the Center. Therefore, they could not accurately determine if the amount of 

parking revenue received from the parking contractor agreed with the amount of revenue 

NASM should have received from the opening of the Center on December 15,2003, 

through March 3 1,2004. NASM staff could not accurately determine the revenue they 

should have received because contractor reports did not distinguish between the 

following items: paying and non-paying vehicles; refunds; and sales of $12 versus $50 

parking passes. During our audit NASM management developed procedures to resolve 

differences between actual and expected revenue received from the parking contractor. 


Background 

To effectively monitor revenue from the Center's parking operation, NASM staff had to 

distinguish between different payment options available to visitors. First, they allowed 

certain types of vehicles to park at the Center without paying, such as: employees, tour 

and school buses, taxis, and vehicles picking up or dropping off visitors. Second, they 

offered visitors the option of purchasing a $12 daily pass or a $50 annual pass. NASM 

discontinued $50 annual pass sales in January 2004. Third, due to the limited food 

options at the Center when it was opened, NASM management instructed the contractor 

to allow visitors to re-enter the parking lot without paying. Fourth, visitors could receive 

refunds. The challenge for NASM and the parking contractor was to identify the number 

of each of these different types of transactions each month, calculate the revenue 

produced by these transactions, and then compare the revenue received to the revenue 

expected. Although the contract terms gave the contractor 120 days to provide reporting 

plans to NASM, we believe that adequate reporting should have been in place from the 

start. 


NASM had the additional challenge of checking the revenues received against the 

contractor's reports. Beginning in December 2003, when the Udvar-Hazy Center opened, 

NASM received two different reports of parking activity from the parking contractor. 

The first report was a daily income report, and the second report was a monthly activity 

report. Beginning in February 2004, the contractor began sending NASM a third report, 

called a "count log". The "count log" report identified the revenue provided from the 

sales of two ticket types: a $12 daily pass and a $50 annual pass. 


Smithsonian Directive 115, Management Controls, states that, "Transactions should be 

promptly recorded and accounted for in order to prepare timely accounts and reliable 

financial reports." The Directive and the Office of Management and Budget Circular A- 

123 define management controls to include policies and procedures to ensure reliable 

data are obtained, maintained, reported, and used for sound decision-making. 

The parking contract between NASM and the parking contractor requires the contractor 

to furnish the Smithsonian with monthly statements consisting of (1) revenue and 

number of tickets generated by booth, shift, and day; (2) a list of dates and preset dollar 

amounts transferred from the contractor's bank account to the Smithsonian's bank 

account; (3) a bill if funds were over-transferred or a check if funds were under- 

transferred; and (4) an itemized bill of any after-hour parking services approved and
expended. The contract did not require the contractor to submit reports that identified
transactions by type of ticket sold ($12 daily passes versus $50 annual passes), or that
tabulated the number of non-revenue transactions or refunds. The contract also
provided the contractor 120 days to provide all reporting plans, including the cash
management plan.



NASM staff could not accurately determine the revenue they should have received
because contractor reports did not distinguish between the following items: paying and
non-paying vehicles; refunds; and sales of $12 versus $50 parking passes. NASM staff had
not received an accurate contractor report which could be compared to the revenue data
on any of the three reports provided by the contractor. Therefore, they could not
accurately determine whether the revenues received from the parking contractor agreed
with the types of transactions processed each month.

From December 2003 to January 2004, NASM received revenue data only on the posted
daily income report. NASM staff could not determine from this report if revenue was
received for all vehicles which should have paid, because the report lacked a vehicle count.

Beginning in February 2004, NASM and contractor officials developed more detailed
report formats, and the contractor began submitting a spreadsheet called the Smithsonian
"count log." NASM staff determined sales by type of ticket, the number of non-revenue
transactions, and the number of refunds from the "count log." The contractor then went
back and produced the "count log" reports for December 2003 and January 2004 activity
and submitted them to NASM. NASM and contractor officials later determined that the
"count log" underreported sales of $50 annual passes for December 2003 and January
2004. NASM and the contractor determined that for those two months, the contractor's
"count log" understated revenue from $50 annual pass sales by $31,344. This amount
represents approximatelytwo percent of the total revenue of $1,527,743 for sales of both
$12 daily passes and $50 annual passes during that period. NASM also determined that
the "count log" contained inaccurate vehicle counts, which prevented NASM from
comparing vehicle counts to revenues received.

NASM was unable to reconcile vehicle activity to revenues received from the contractor,
because the contractor's reports from December 2003 to January 2004 were not formatted
to meet NASM's needs. The contractor reports did not distinguish between paying and
non-paying vehicles, refunds, and sales of $12 versus $50 parking passes, because NASM
officials had not included these requirements in the contract. The contract only required
the contractor to report (1) the revenue and number of tickets generated by booth, shift,
and day; (2) a list of dates and preset dollar amounts transferred from the contractor's
bank account to the Smithsonian's bank account; (3) a bill if funds were over-transferred
or a check if funds were under-transferred; and (4) an itemized bill of any after-hour
parking services approved and provided. According to NASM management, they
formulated their contractor report requirements based on input from their parking
experts. They said their parking experts told them that the reports proposed by the
parking contractor represented the industry standard. NASM did not realize until they
started working with the reports that they needed a different report format to distinguish
between paying and non-paying vehicles, refunds, and sales of $12 versus $50 parking
passes. Once NASM management realized the need for a vehicle count report to match
against revenues received, it requested one, but the contractor was unable to provide a
report with accurate vehicle counts. NASM management told us that there appeared to
be communication problems within the contractor's organization which were delaying
the production of reports which would meet NASM's needs. During the audit, NASM
management discontinued the sale of $50 passes and developed written procedures for
reconciling revenues received to vehicle counts from the parking contractor.

We determined that NASM should have received approximately $1,527,743 from the sale
of $12 daily passes and $50 annual passes from December 15,2003 to March 31,2004.
NASM actually received $1,528,435, or an overpayment of $692. This amount represents
less than 1 percent of the revenue NASM should have received. NASM should have
received $59,708 from the sale of $50 annual passes from December 2003 to January 2004;
however, NASM actually received $28,364, an underpayment of approximately $31,345
(52 percent).

Conclusion

NASM could strengthen controls over its parking contractor by requiring more
meaningful data from its contractors. NASM has started to improve its controls by
working with the contractor to provide reports that meet its needs.



We recommended that the Director, National Air and Space Museum ensure that his staff
amend the contract with the parking contractor to provide accurate revenue reports
containing relevant information and reconcile the revenue it should have received to the
revenue it actually received.



Concur. During our FY05 contract negotiations, which will be completed December 31,
2004, we will incorporate additional reports that will meet the Inspector General's stated
recommendations.

Office of the Inspector General Response

The Director's plan of action, if implemented, is responsive to our recommendation.
B. NASM Parking Procedures
NASM's parking procedures allow some visitors to park their vehicles without paying,
which decreases parking revenue and increases the risk of cashier theft and visitor non-
payment. NASM's procedures provide an opportunity for cashiers to explain improper
behavior, such as unrecorded sales, as legitimate non-payment transactions. The
procedures also provide visitors with a motivation to broadly interpret non-payment
rules to their advantage. As a result of these procedures, NASM is not receiving
approximately 13 percent of the monthly revenue it could have received from parking
fees. The procedures also increase the risk of lost revenue from undetected cashier theft
and visitor non-payment schemes. NASM management told us that they have eliminated
several types of non-payment transactions.

Background

From December 15,2003, to March 31,2004,18,636 visitors out of a total of 147,411
visitors, or 13 percent, were allowed to park in the parking lot without paying. The
parking contractor collected a total of $1,545,300 for $12 parking passes but would have
collected $1,768,932 if all these visitors were charged.

In our discussions with the parking contractor, they advised that non-revenue
transactions were not standard practice and could decrease control over parking
operations. In addition, the International Parking Institute publication, Parking 101- A
Parking Primer, states the following: Non-revenue tickets should be controlled by
requiring cashiers to itemize non-revenue tickets for each shift and supervisors should
itemize them for each daily report. When a type of non-revenue ticket is increasing in
frequency, the cause may be fraudulent. The documentation of all non-revenue tickets
facilitates the early detection of possible problems.

Results

NASM policy permits approximately 13 percent of vehicles to enter the Udvar-Hazy
Center each month without paying, which decreases the revenues received from the
Center's parking facility. NASM's policy allowed people to pick up and drop off visitors,
and allowed visitors to re-enter the Center's parking lot without paying. These
transactions totaled on average approximately $56,000 per month in potential revenue.

The contractor's procedures called for reconciliation of sales, returns, and exceptions
(non-revenue transactions) to cash received. The procedures did not require the cashiers
to retain physical documentation -- such as ticket stubs -- for non-revenue transactions.
Instead, the procedures required the cashiers to identify the type of non-revenue
transactions on a "Free Item Log." NASM management decided to allow re-entry of
visitors due to the limited food options at the Center. NASM management wanted
visitors to be able to leave, eat lunch, and then return because there was only one food
vendor at the Center.

NASM's policy to allow non-revenue transactions and the parking contractor's
procedures together increased the risk that cashiers could charge a visitor $12 for a daily
parking pass and pocket the money without detection. The cashier could record the
transaction on their Free Item Log as a non-revenue transaction -- such as a re-entry --
and a supervisory review of their "Free Item Log" would not detect the theft. NASM
management told us that they had eliminated the practice of allowing visitors to leave and
return on a daily parking pass and they had eliminated other groups of non-revenue
transactions. NASM management told us that there were legitimate non-revenue visitors
such as employees or their identified contractors, special guests, representatives of
Metropolitan Washington Airports Authority on official business, tour buses, and hotel
vans. NASM is determining whether to continue to allow free drop off of visitors not
parking at the Center.

Conclusion

NASM could decrease the number of non-revenue transactions and the risk of lost
revenue by requiring the contractor to document non-revenue transactions. For
example, cashiers could be required to maintain existing numbered ticket stubs as
evidence of non-revenue transactions. Improved signage, by directing visitors to non-
payment lanes where applicable, may also reduce lost revenue from non-paying visitors.
NASM management told us that a contract has been executed to improve signage
beginning in August 2004. Periodic reviews of the supporting documentation for non-
revenue transactions could also deter improper cashier behavior.



We recommended that the Director, National Air and Space Museum instruct the
contractor to strengthen their procedures to ensure non-revenue transactions are
legitimate.

Management Comments

Concur. We will review our current non-revenue options and increase controls as
necessary by December 3 1,2004.

Office of the Inspector General Response

The Director's plan of action, if implemented, is responsive to our recommendation.
C. Smithsonian Business Ventures Contracting Procedures

SBV did not have its practices documented in the form of written procedures. SBV
management told us the contracts with its vendors represented its contracting procedures.
One of the two SBV concession contractors at the Center did not submit monthly
management reports and did not promptly remit the revenue it could have remitted as a
result.

Background

Smithsonian Directive 115, Management Controls, and OMB Circular A-123, Management
Accountability and Control, define management controls to include policies and
procedures to ensure reliable data are obtained, maintained, reported, and used for sound
decision-making. In addition, Smithsonian Directive 115 refers to management controls
cited in OMB Circular A-123. These controls include policies and procedures used by
managers to ensure that programs achieve their intended results and that resources are
protected from the risks of waste, fraud, and mismanagement.

SBV had to bring in a new, temporary, concession contractor to the Center due to
ongoing negotiations with the original concession contractor and the need to put a food
and beverage vendor in place by the Center's opening date. A two-page memorandum of
understanding was the initial agreement between the Institution and the temporary
concession contractor. SBV and the temporary concession contractor intended to replace
the memorandum of understanding with a more detailed contract, which was awaiting
signature at the time of our audit. The temporary concession contractor also submitted
weekly sales figures to SBV.

Results

We found that SBV did not have written procedures to manage concession contracts and
contractors. In fact, we found that SBV generally lacked written contracting procedures.
SBV management had not established written contracting procedures because they
believed that the language in the concession contracts represented their contracting
procedures. Although the contract terms might complement contracting procedures,
they are not a substitute for them. The Office of Contracting demonstrated the use of
written procedures in the case of the parking contractor overseen by NASM personnel. In
that instance, the Office of Contracting issued the Contracting Officer's Technical
Representatives a list of responsibilities for monitoring the contractor's performance.

Written contracting procedures could have provided SBV guidance on the key elements
to include in the memorandum of understanding, such as reporting and remittance
instructions. The memorandum of understanding did not require the contractor to
report or remit funds within specified time frames. The lack of written contracting
procedures, combined with the hurried drafting of the memorandum of understanding to
hire a short-term food and beverage vendor, resulted in a memorandum of understanding
that failed to address monthly reporting or remitting funds to SBV.
These omissions increased the likelihood that the contractor would not send SBV
monthly activity reports or remit revenue to SBV monthly. The contractor did submit
weekly sales figures to SBV's Concessions Director and the contractor remitted $92,179 in
concession revenue for the period from December 15,2003, to March 31,2004, to SBV on
April 1,2004.

Conclusion

Written contracting procedures are a best practice for communicating expectations to
employees who manage contractors. We believe that such procedures could provide
detailed instructions for SBV personnel and provide the opportunity to clarify
responsibilities between SBV units. For example, the duties for following up and
monitoring contractors between SBV's operational and accounting personnel could be
more fully explained in the procedures. Such procedures can increase the accuracy and
timeliness of contractor revenue reports, improve revenue, reduce risk, and provide the
basis for sound decisions.

Recommendation

We recommended that the Chief Executive Officer for SBV ensure that his staff develops
written contracting procedures for monitoring contractor performance.

Management Comments

Concur. SBV will establish written contract administration policies and procedures for all
Business Units by January 1,2005.

Office of the Inspector General Response

The Chief Executive Officer's plan of action, if implemented, is responsive to our
recommendation.
                                                                                                                             APPENDIX A




                                                                                                -.

            Smithsonim                                                                                         Memo 

            National Air and Space Museum 





      To 	 Thnmas U.l h i r 

            Inspector General 





    F n ~ m I.K. Dailcy 

            tlirector 




 Subject     ltevised Draft Report o n the A u d i t o f Steven F. Udvar-Haty Center B u s i n m Activities



               W e have reviewed your August 10.2004 Draft Report o n the Udvar-Hazy Center's business activities. W e
concur w i t h rcct~mmendation# I . and d u r i n g o u r FY05 contract negotiations, we w i l l incorporate additional reports that
will m r r t the Inspcctur Ccneral's stated reconimcndations. For recommendation #2, we concur w i t h the
rccommcndations and will review our current non-revenue options and increase controls as necesary.



             W c L m k forward to working w i t h your staff t o b r i n g this rcport to completion.




             SMII'IISONIAN INSI'II'L'I'ION
             Nalianill Air and Space M u s u m Room 3.509
             lndepa~dence   A v c n ~ ~ cSixth
                                         a t Srrect sW
             Washinglo~t DC 2o.U~o-OJle
             202.357.1427 Telephone
             202.78h.2262 Fax
                                                                                              APPENDIX B

WRITTEN COMMENTS BY THE CHIEF EXECUTIVE OFFICER, SMITHSONIAN
BUSINESS VENTURES


                                                                       a
                                 ,-

      @I Srnithsonian Business Ventures

             zE"tiwors,




          August 11,2004



          Mr. Thomas D. Blair 

          Inspector General 

          SmithsonianInstitution 

          Victor Building 

          Suite 4200 

          750 Ninth Skeet, N.W. 

          Washington, D.C. 20560-0905 


          Dear Mr. Blair:

                 I have reviewed your revised draft report on the Audit of Accounting for Business
          Activities at the Steven F. Udvar-Hazy Center dated August 10,2004.

                 We concur with your recommendation that the Chief Executive Officer for SBV
          ensure that written contracting procedures for reporting and reconciling revenue fiom
          contractors be developed. SBV will establish contract administration policies and
          procedures in writing for all Business Units. Our goal is to have this completed by
          January 1,2005.



       AT&.("p.
                 /7


          Gary   .B




            SMITHSONIAN INSTITUTION

            Office of the CEO 

            10~33JeRemn Drive SW Room 310 

            Washington DC M-38

            202.786.9141Telephone 

            M2.786.9147Fax 

